         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Implementation of the Department of
Energy's Concentrating Solar Power
Program




OAS-RA-L-13-01                    November 2012
                                        Department of Energy
                                           Washington, DC 20585
                                               November 1, 2012


MEMORANDUM FOR THE PROGRAM DIRECTOR, CONCENTRATING SOLAR POWER
               PROGRAM


FROM:                         Daniel M. Weeber
                              Assistant Inspector General
                                for Audits and Administration
                              Office of Inspector General

SUBJECT:                      INFORMATION: Audit Report on "Implementation of the Department
                              of Energy's Concentrating Solar Power Program"

BACKGROUND

The Department of Energy's Office of Energy Efficiency and Renewable Energy's Concentrating
Solar Power Program is intended to broaden the use of concentrating solar power by making the
technology cost competitive in the conventional power market. The Department plans to achieve
this goal through cost-shared contracts with private industry, as well as facilitating advanced
research at its national laboratories. Concentrating solar power technologies concentrate the
sun's energy and convert it to heat which is then used to drive an engine or turbine to produce
electrical power.

In 2009, the Department issued two Funding Opportunity Announcements to further research
and development of concentrating solar power. The first announcement, Recovery Act: National
Laboratory Call for Foundational Photovoltaics and Concentrating Solar Power Research and
Development (Recovery Act Award), issued in May, was aimed at complementing ongoing
Department funded concentrating solar power research activities. Under this American
Recovery and Reinvestment Act of 2009 announcement, the Department made awards to eight
national laboratories and one consortium, totaling approximately $29.7 million. Of the eight
awards, only three were directly related to concentrating solar power activities. These awards,
totaling $24.1 million, were awarded to two national laboratories and one consortium that
included a national laboratory.

The second announcement, Baseload Concentrating Solar Power Generation (Baseload Award),
was issued in July. The Department's objective was to aid the private sector in the development
and evaluation of concentrating solar power systems that could lead to utility scale baseload1
power plants capable of generating electricity at costs competitive with fossil-fired generators.
The Department subsequently made 13 awards totaling $50 million to private industry
companies and one university.
1
  Utility scale baseload is the minimum amount of electric power delivered or required over a given period of time at
a steady rate.
Given the President's goal of creating new green jobs and helping to ensure 10 percent of the
United States' electricity comes from renewable sources, we initiated this audit to determine
whether the Department established effective controls over the cooperative agreements and
contracts under the Concentrating Solar Power Program.

CONCLUSIONS AND OBSERVATIONS

We found the Department had implemented controls over the selection and monitoring of both
its Baseload and Recovery Act Awards. For its Baseload Awards, the Department developed
and implemented a control process that, in our opinion, provided reasonable assurance that funds
were properly awarded and subsequently managed.

Similarly, for its Recovery Act Awards, the Department implemented a control process that
included an application and award selection process, onsite monitoring and regular performance
reviews. This control process differed from the Baseload Award in that the Recovery Act
Awards were restricted to national laboratories operated by established Management and
Operating contractors. For both award types, our test work did not identify problems with
supporting documentation for costs claimed by the recipients and reimbursed by the Department.
We also found the projects were generally meeting established deadlines and milestones
according to available recipient and Department progress and monitoring reports.

                                        Baseload Award

We reviewed the Department's Baseload Award selection process and found the Department had
implemented a number of controls over its award recipients. For example:

   •   Applications were evaluated to determine whether the recipient was eligible for an award
       and if the proposed project was responsive to the Department's objectives. A subsequent
       merit review evaluated the application's project description, technical approach and
       project management plan;

   •   The Department used a risk analysis to streamline the level of detailed review required
       for each recipient's sub-awards. We reviewed this process and found that for each
       Baseload Award recipient, the Department performed a risk management assessment to
       determine the level of scrutiny needed for subcontractor review, giving more scrutiny to
       higher risk sub-awards;

   •   The Department assessed the financial risk associated with each award recipient.
       Recipients found to be at financial risk had Departmental review of all payment requests;
       and,

   •   The Department instituted a cost sharing requirement for each recipient. Recipients were
       to contribute 20 percent of total project costs in Phases I and II of the award and 50
       percent in Phase III.

We also found the Department was monitoring Baseload Award recipients through a series of
reviews conducted during each phase of the project, quarterly progress reports, site visits and
quarterly teleconferences with industry recipients and university recipients. With each Baseload
                                                2
Award divided into three phases, the Department planned to make a go/no-go decision before
beginning the next phase based on whether the project met the Department's review criteria. For
example, the Department determined that one recipient was behind schedule as the end of Phase
I approached. Subsequently, the Department and the recipient came to a mutual decision to
terminate the award.

During the audit, we conducted site visits and reviewed documentation for two Baseload Award
recipients. The Department awarded one recipient approximately $10.6 million to develop new
concentrating solar power receiver technology and the second recipient almost $4.3 million to
develop new solar collector technology. Our test work of supporting documentation for costs
and cost shares claimed by the recipients did not disclose any issues. As of June 2012, the
Department had made payments to the recipients of approximately $1.25 million and $800
thousand respectively. These payments were within the amounts budgeted for Phase I of the
projects. The Department had approved the second recipient to move into Phase II of its project
and had given the first recipient a conditional "go" decision to move into Phase II of its project.

                                       Recovery Act Award

We also reviewed the Department's Recovery Act Award selection and monitoring process and
found the Department had also implemented a number of controls over its award recipients. For
example:

   •   The Department initially evaluated applications to determine if the applicant was eligible
       for an award and if the proposed project was responsive to the Department's objectives.
       A subsequent merit review evaluated the application's project impact and the extent to
       which the proposed work would enhance the manufacturing, testing and evaluation of
       solar technologies; and,

   •   The Department monitored Recovery Act Award recipients through site visits, monthly
       progress reports and teleconferences.

We conducted site visits to two Recovery Act Award recipients, the National Renewable Energy
Laboratory (NREL) and Sandia National Laboratories (Sandia). NREL was awarded
approximately $4.4 million in Recovery Act funds and had received approximately $2.6 million
(61 percent) of its award from the Department as of June 2012. NREL used these funds to
upgrade and expand the laboratory's solar concentrator and thermal storage test and evaluation
facilities. Our test work of project costs did not identify any concerns with the amounts claimed
by NREL. According to NREL officials, the project was generally meeting established
deadlines. We also found that the Department was monitoring NREL's performance through
bimonthly progress reports, teleconferences and site reviews conducted in November 2011 and
May 2012.

Sandia was awarded approximately $17.8 million in Recovery Act funds to upgrade and expand
its National Solar Thermal Test Facility (NSTTF). The Department designated NSTTF as a user
facility whereby private industry, universities and other laboratories have access to the site to
conduct concentrating solar power research. As of June 2012, Sandia had received payments
from the Department totaling approximately $16.3 million (92 percent) of its award. During our
review, we noted that Sandia had modified the scope of the project and made baseline changes
                                                 3
that were reviewed and approved by the Department. According to Department and Sandia
officials and reports, Sandia was generally meeting the established deadline for completing its
Concentrating Solar Power Project. Similarly, we found that the Department was monitoring
Sandia's award through bimonthly progress reports, teleconferences and on-site visitations
conducted in November 2011 and May 2012.

PATH FORWARD

Our review did not identify any material concerns with the management of the Concentrating
Solar Power Program. We encourage the Department to continue its monitoring of the
Concentrating Solar Power Program as projects move forward to ensure success in meeting
program objectives.

No recommendations are being made in this report; therefore, a formal response is not required.
We appreciate the cooperation of the various Department elements, National Laboratory
personnel and the private sector during our audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                                4
                                                                                     Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department)
established effective controls over the cooperative agreements and contracts under the
Concentrating Solar Power Program.

SCOPE

This audit was performed between October 2011 and October 2012, at Department Headquarters
in Washington, DC, as well as the Golden Field Office, Golden, Colorado. The audit included
site visits to four award recipients, including Sandia National Laboratories (Sandia) in
Albuquerque, New Mexico; National Renewable Energy Laboratory (NREL) in Golden,
Colorado; and, two private sector companies.

METHODOLOGY

To accomplish the audit objective, we:

   •   Reviewed applicable laws, regulations and guidance relevant to the Concentrating Solar
       Power Program;

   •   Interviewed key personnel in the Department's Office of Energy Efficiency and
       Renewable Energy located at Department Headquarters and the Golden Field Office;

   •   Performed site visits and interviewed key personnel at NREL, Sandia, and two private
       sector companies;

   •   Reviewed site recipients' progress reports, invoices, supporting cost documentation,
       baseline change proposals and project plans; and,

   •   Analyzed invoices and supporting documentation to determine whether project expenses
       were reasonable and reimbursable.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our audit objective. Accordingly, the audit included tests of controls
and compliance with laws and regulations to the extent necessary to satisfy the objective. In
particular, we assessed the Department's implementation of the Government Performance and
Results Act of 1993 and concluded that the Department tracks the performance of the
Concentrating Solar Power Program in its Annual Performance Report. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have



                                               5
                                                                        Attachment (continued)


existed at the time of the audit. While our reliance on computer-processed data was minimal, we
verified the accuracy of data relative to the audit objective.

The Department waived a coordination meeting for this report on October 3, 2012.




                                               6
                                                               IG Report No. OAS-RA-L-13-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                        Date

Telephone                                   Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
